<html>
<title> - THE FISCAL COSTS OF THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMIGRATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
              THE FISCAL COSTS OF THE PRESIDENT'S 
              EXECUTIVE ACTIONS ON IMMIGRATION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

                      SUBCOMMITTEE ON HEALTH CARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

                           Serial No. 114-14

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                ____________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
94-539 PDF                  WASHINGTON : 2015                      
                      
_______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  
                     




                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
     Art Arthur, Staff Director, Sub Committee on National Security
                        Melissa Beaumont, Clerk
                   Subcommittee on National Security

                     RON DeSANTIS Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR. Tennessee            Ranking Member
JODY B. HICE, Georgia                ROBIN L. KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California

     Subcommittee on Health Care, Benefits and Administrative Rules

                       JIM JORDAN, Ohio, Chairman
TIM WALBERG, Michigan                MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, District of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina, Vice  BRENDAN F. BOYLE, Pennsylvania
    Chair                            JIM COOPER, Tennessee
MARK WALKER, North Carolina          MICHELLE LUJAN GRISHAM, New Mexico
JODY B. HICE, Georgia                Vacancy
EARL L. ``BUDDY'' CARTER, Georgia
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2015...................................     1

                               WITNESSES

Mr. Robert Rector, Senior Research Fellow, Domestic Policy 
  Studies, DeVos Center for Religion and Civil Society, The 
  Heritage Foundation
    Oral Statement...............................................     4
    Written Statement............................................     7
Steven A. Camarota, Ph.D., Director of Research, Center for 
  Immigration Studies
    Oral Statement...............................................    20
    Written Statement............................................    22
Ms. Eileen J. O'Connor, Esq., Partner, Pillsbury Winthrop Shaw 
  Pittman LLP
    Oral Statement...............................................    32
    Written Statement............................................    34
Ms. Avideh Moussavian, Economic Justice Policy Attorney, National 
  Immigration Law Center
    Oral Statement...............................................    41
    Written Statement............................................    43

                                APPENDIX

March 16, 2015 GAO Report, ``Improper Payments,'' submitted by 
  Rep. DeSantis..................................................    72


  THE FISCAL COSTS OF THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMIGRATION

                              ----------                              


                        Tuesday, March 17, 2015,

                  House of Representatives,
  Subcommittee on National Security joint with the 
         Subcommittee on Health Care, Benefits and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room 2154, Rayburn House Office Building, the Honorable Ron 
DeSantis
    [chairman of the subcommittee on National Security], 
presiding.
    Present: Representatives DeSantis, Jordan, Mica, Gosar, 
Meadows, Mulvaney, Walker, Hice, Carter, Walberg, Cartwright, 
Norton, Lynch, Lawrence, Lieu, Watson Coleman, and DeSaulnier.
    Mr. DeSantis. The Subcommittee on National Security and the 
Subcommittee on Health Benefits and Administrative Rules will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    On November 20, 2014, President Obama announced a series of 
executive actions regarding illegal immigration. These actions 
grant benefits to non-citizens who are unlawfully present in 
the United States, including work permits and Social Security 
numbers.
    Twenty-six States among others have challenged the legality 
and constitutionality of these actions. In fact, a Federal 
district court has recently issued a preliminary injunction 
halting implementation of these executive actions. Time will 
tell whether the President's actions will hold up in court.
    Enacting major policy changes by executive fiat deprives 
the American people of their right to influence important 
policy debates. With this in mind, the fiscal cost associated 
with the President's actions need to be examined as the 
American people will be required to pay the tab for what the 
President did.
    Unfortunately, but not surprisingly, the Obama 
Administration has not released any numbers on how much these 
executive actions will cost American taxpayers, nor is there 
any evidence that the Obama Administration sought advice from 
other government agencies or departments, let alone State and 
local governments, about the consequences of these actions.
    IRS Commissioner John Koskinen recently testified before 
this committee that the White House did not consult with him 
when putting together its immigration plan. This is noteworthy 
because illegal immigrants granted Social Security numbers will 
be able to claim the refundable earned income tax credit.
    They will be able to file retroactively amended returns for 
the prior 3 years for work performed illegally in the United 
States. This means that illegal immigrants benefiting from the 
President's action will be able to claim as much as, and 
perhaps more than, $24,000 in refunds even though the work 
performed was not lawful to begin with.
    And course the work permits issued to illegal immigrants 
under the President's Executive Orders will give the amnestied 
illegal worker a hiring preference over an American worker due 
to being exempt from ObamaCare's Employer Mandate.
    Furthermore, it is an open question if the non-citizen is 
granted legal status will be tax consumes or tax contributors. 
That is, will they consume more in benefits than they pay in 
taxes. To answer that question among others, we have a panel of 
distinguished experts today to discuss the possible cost of the 
President's executive actions.
    The White House, Federal agencies, Congress, State and 
local governments need to understand the cost of these actions 
should they go forward. The American taxpayer should not have 
to bear the burden of paying for an illegal program.
    Mr. DeSantis. I ask unanimous consent that our colleague 
and fellow Government Oversight and Reform Committee member, 
Mr. Gosar, be allowed to fully participate in today's hearing. 
Without objection, so ordered.
    I now recognize Mr. Cartwright, the Ranking Member of the 
Benefits Subcommittee, for his opening Statement.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I thank you for convening this afternoon's hearing on the 
potential cost of the Administration's executive actions on 
immigration.
    There are indeed costs to immigration, costs that really 
cannot be boiled down to a pissy sound bite. Certainly, there 
is much disagreement on what to do about the 11 million 
undocumented immigrants in the United States.
    I think we can all agree that the cost of doing nothing is 
too much to bear. That is why I supported and will continue to 
support comprehensive immigration reform that includes a tough 
but fair path to citizenship. I believe illegal conduct must be 
punished with heavy fees and fines and dangerous, undocumented 
persons need to be deported.
    A plan like that would bring undocumented immigrants out of 
the shadows and transform them into taxpaying individuals, 
paying their fair share into our health care system and our 
Social Security systems.
    In the last Congress, the Senate passed a bipartisan bill 
that would have helped fix our broken immigration system while 
also spurring economic growth in my northeastern Pennsylvania, 
where my district is, and also across the Country.
    In fact, according to a White House report, the bipartisan 
Senate immigration bill would have spurred Pennsylvania's 
economy and created approximately 15,780 new jobs and generated 
$64 million for Pennsylvania. That was a bill that was 
supported by the U.S. Chamber of Commerce and the American Farm 
Bureau.
    Following the House Republican leadership's failure to act 
on that bipartisan Senate immigration bill, the Administration 
took executive action, as you all know, late last year. 
Anticipated economic benefits are significant.
    For example, the White House Council on Economic Advisors 
has conservatively estimated that the executive actions on 
immigration would raise the level of GDP by 0.5 percent after 
10 years, which is equivalent to an additional $100 billion in 
real GDP in 2024 in today's dollars. It would cut Federal 
deficits by $30 billion in 10 years. It would expand the 
Country's labor force by 200,000 people and raise average wages 
for U.S.-born workers.
    Without immigration reform, our current immigration laws 
impose huge fiscal and economic costs. A recent report from the 
American Action Forum, a conservative leaning policy institute 
headed by Douglas Holtz-Eakin, concluded the 20 year cost of 
apprehending and removing all undocumented immigrants, while 
securing the borders, would cost taxpayers between $815 billion 
and $1.2 trillion. That is trillion with a T.
    They also found ``The labor force would shrink by 6.4 
percent or 11 million workers and as a result, in 20 years, the 
U.S. GDP would be 5.7 percent or $1.6 trillion lower than it 
would be without fully enforcing current law.'' This 
conservative-leaning group's analysis is useful and it is a 
reminder that all immigration reform policies have a price tag 
attached to them. It is up to us in Congress to appropriately 
weigh those costs and other factors when we are crafting laws.
    I think why you are seeing so many Republicans and 
Democrats, not to mention scores of labor, business and 
advocacy groups, come down on the side of supporting a 
comprehensive approach to immigration reform, is that it 
strikes the right balance.
    It secures our borders, it strengthens our economy, it 
brings millions of undocumented immigrants out of the shadows 
and into taxpaying individuals, paying their fair share into 
our health care and Social Security systems, which everyone 
knows could use shoring up all the time.
    A comprehensive solution is what we need, something that 
will advance our Country's values and will honor our history as 
a Nation of immigrants.
    Again, I thank the Chair and I look forward to our 
witnesses' testimony today.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The Chair now recognizes the Chairman of the Benefits 
Subcommittee, Mr. Jordan, for 5 minutes.
    Mr. Jordan. I thank the chairman for this hearing and our 
esteemed witnesses who are here today.
    I will be very brief.
    The title of the hearing is The Fiscal Cost of the 
President's executive actions on Immigration. I like to view it 
as the unfairness of the President's executive actions.
    In this hearing room, as the Chairman pointed out in his 
opening Statement, the colleague to my left, Mr. Mulvaney, 
asked the IRS Commissioner ``Can illegal non-citizens get tax 
refunds? Can they go back the previous 3 years and get those? 
Yes, they can.'' How is that fair to taxpayers? How is that 
fair to citizens?
    How is it fair to seniors that illegal non-citizens can 
participate in our Social Security system? Most importantly, 
how is it fair to legal immigrants who did everything the right 
way but now through the President's Executive Order, illegal, 
non-citizens move to the front of the line and take away 
resources from people who are doing it the right way and did it 
the right way when they came here?
    Also, in this very hearing room, 4 weeks ago, we had two 
Secretaries of State who came and said because of the 
President's action, because of the documents illegal, non-
citizens are now going to have access to, namely Social 
Security cards, Social Security numbers and a driver's license. 
The real potential for 5 million people participating in our 
election process around the Country has increased dramatically, 
so much so that our Secretary of State sent a letter to the 
White House, a letter to the Ohio delegation and came here and 
testified.
    For all those reasons, the cost and unfairness, those are 
huge concerns and that is why this hearing is appropriate and 
why I am glad the chairman has convened it. I look forward to 
hearing from our witnesses.
    With that, I yield back.
    Mr. DeSantis. The gentleman yields back.
    I will hold the record open for five legislative days for 
any member who would like to submit a written Statement.
    We will now recognize our witnesses. I am pleased to 
welcome: Mr. Robert Rector, Senior Research Fellow for Domestic 
Policy Studies, DeVos Center for Religion and Civil Society at 
The Heritage Foundation; Steven A. Camarota, Ph.D., Director of 
Research, Center for Immigration Studies; Eileen J. O'Connor, 
Esq., Partner, Pillsbury Winthrop Shaw Pittman LLP; and Ms. 
Avideh Moussavian, Economic Justice Policy Attorney at the 
National Immigration Law Center. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. DeSantis. In order to allow time for questions, please 
limit your testimony to 5 minutes. Your entire written 
Statement will be made a part of the record.
    Mr. Rector, you are up for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF ROBERT RECTOR

    Mr. Rector. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak today.
    I want to talk about the fiscal cost of one part of the 
amnesty, the deferred action, for parents.
    Our estimate is that there are about 3.9 million illegal 
immigrants who are eligible to gain legal status through this 
program. On average, these individuals have a tenth grade 
education. I want to emphasize that. Many of them have a third 
and fourth grade education.
    I am kind of a strange person. In the last decade or so, I 
have gone around and asked people in the U.S. how many people 
believe that someone with a tenth grade education pays more in 
taxes than they get in government benefits?
    Outside the confines of Congress, I have yet to find a 
single American citizen that believes that is the case. The 
reality is that when you look either at legal immigrants or 
U.S.-born people, individuals who do not have a high school 
degree, in general if you look at all the government benefits, 
Federal, State and local, that they get and all the taxes they 
pay, income tax, property tax, cigarette tax, lottery payments, 
all of those things, on average, that individual who does not 
have a high school degree gets $5 in government benefits for 
every $1 they pay in taxes.
    The illegal immigrant population in the United States gets 
about $2.50 in total benefits, Federal, State and local, minus 
taxes for every dollar paid, 250 to 1. The reason for that is 
the illegal immigrants do not have access to our two most 
expensive programs, Social Security and Medicare, and their 
access to the 80 different means tested anti-poverty programs 
such as Medicaid and food stamps is limited.
    What Obama's executive action does is essentially removes 
those barriers. The first thing it does is it grants 3.9 
million people with a tenth grade education a Social Security 
number which makes them eligible for Social Security and 
Medicare at retirement age.
    They have to work 40 quarters or 10 years but it is a 
minimal work requirement, so most of those individuals, to the 
extent that they apply and receive that amnesty, will, in fact, 
become eligible for Social Security and Medicare.
    The only question would be, how much does that cost? If you 
assume they, in today's dollars, get the average Social 
Security and Medicare benefits that go to legal immigrants who 
are elderly with that same level of education, the costs that 
they are going to be getting over $20,000 a year in benefits in 
retirement in today's dollars, it will actually be much more 
than that obviously, the total cost of that is $1.3 trillion.
    This is a system that is already completely bankrupt. What 
the President has done is taken nearly 4 million people with a 
tenth grade education and given them benefits into that 
program.
    It is true that they will pay a small amount in FICA taxes 
but in general, they are going to be getting $3 of benefits for 
every dollar of FICA taxes they pay. I am going to show that 
they actually really don't ever make a net payment.
    It is said we need them to pay taxes. This group never 
makes a net payment into the U.S. Treasury. At every stage of 
their lives, they will always be drawing more out in government 
benefits than they pay in.
    How can that be? For example, this household already, 
because they have U.S.-born citizens, gets around $6,500 a year 
in means tested benefits for their kids, food stamps, Medicaid, 
SCHIP and so forth.
    This action gives them access to the ACTC and EITC which 
are the two largest cash welfare programs. That is another 
$4,000 per household per year. On top of that, the action does 
not give them access to ObamaCare but I would ask anyone who 
supports this, do you think we ought to let them stay here for 
30 years and never give them health care?
    That is not very feasible. If they got ObamaCare, that is 
around another $7,500 a year. That is close to $18,000 a year 
in benefits that they will be getting even before they get into 
retirement. It vastly exceeds the FICA and income taxes that 
they pay.
    It is an illusion. The way this is ordinarily done, as you 
talked about, they make $5,000 or $6,000 in Social Security or 
FICA taxes and they put in that money, but that does not do the 
U.S. Treasury any good if at the same time they put in $5,000 
or $6,000 to the Social Security Trust Fund, they draw $20,000 
out of general revenue. Is the U.S. Treasury any better for 
that? Absolutely not.
    The reality is this group, on the Federal level, never 
makes a net contribution. The FICA taxes they pay are more than 
offset by what they draw back. At the State and local level, 
they are getting around $18,000 to $19,000 in free public 
education. They never cover that cost. Other taxpayers have to 
pay for it.
    When they hit Social Security, then you have this huge loss 
in retirement of around $1.3 trillion.
    Again, the bottom line is you cannot take people with a 
tenth grade education, bring them to the United States, give 
them access to the largest and most expensive entitlement 
system, the largest and most expensive welfare system on the 
globe, and expect there will not be negative fiscal 
consequences. The fiscal consequences are extremely large and 
run in the trillions of dollars.
    [Prepared Statement of Mr. Rector follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. DeSantis. Thank you. The gentleman's time has expired.
    The Chair now recognizes Dr. Camarota for 5 minutes.

                 STATEMENT OF STEVEN A. CAMAROTA

    Mr. Camarota. I would like to thank both the committee and 
the subcommittee for inviting me here to talk about this very 
important topic.
    Let me start by stating that there is this general 
agreement that individuals, immigrant or native, legal or 
illegal, with modest levels of education and resulting lower 
incomes, are a net fiscal drain, paying less in taxes than they 
use in services.
    In contrast, more educated individuals, immigrant or 
native, earn higher wages and are a net fiscal benefit. This is 
not just common sense, but it is not even very controversial.
    Prior research by the Center for Immigration Studies, as 
well as the Pew Hispanic Center, indicate that about half of 
all legal immigrants have not graduated high school and about 
another quarter have only a high school education.
    That gives us an idea and helps us understand what the 
likely educational profile would be of those who receive the 
President's deferred action. Given the education level of 
illegal immigrants who are likely to receive DAPA, it seems 
certain that allowing them to remain in the Country is costly 
to taxpayers, whether they have legal status or not.
    For example, in 2014, 61 percent of households headed by 
immigrants who had not graduated high school told the Census 
Bureau in the current population survey that they were using 
one of the Federal welfare programs, cash and non-cash.
    Again, these figures are just what they told the Census 
Bureau. There is actually under reporting. The actual rates are 
higher.
    Given the education level of immigrants likely to get DAPA, 
the total fiscal cost, all taxes paid minus all services used 
at all levels of government is probably something like $30 
billion negative, if you take into account all their taxes and 
use of services.
    What would happen if we legalized them? If everyone who is 
eligible for DAPA comes forward and everyone pays all the taxes 
they should, these are big assumptions but if you just reduce 
it, cut these by 10 to 20 percent, whatever you think the 
compliance will be, the point is if everyone gets what they are 
entitled to and pays all the taxes they are supposed to, then 
it looks like they would pay about $8 billion more in taxes and 
you get about $9 billion more at the Federal level from just 
the earned income tax credit and the additional child tax 
credit. Those are the two main programs for low income workers 
of this kind.
    In short, amnesty will not increase both tax revenue and 
cost but this is a reminder that you cannot generate net income 
for public coffers from less educated, low income people. 
Having said that, it must be remembered that most immigrants 
come to America to work. Most immigrants, in fact, do work and 
even most illegal immigrants pay taxes, but less educated 
immigrants, as a group, do not pay anywhere near enough in 
taxes to cover their consumption of public services regardless 
of legal status.
    Let me also say that the net fiscal drain that less 
educated immigrants create and less educated natives, for that 
matter, we should not see this as some kind of moral failing on 
their part.
    Instead, we should see this fiscal drain as simply 
reflecting the nature of the modern American economy that 
offers limited opportunities to the less educated and the 
existence of a well developed welfare State which provides 
assistance to low income workers.
    This last point is important. Welfare and work in America 
go together like love and marriage. The vast majority of 
households reporting they are using the welfare system, 
particularly the non-cash programs, have a worker in them. That 
describes a lot of immigrant households, particularly the ones 
that would get DAPA.
    The existence of a welfare State remember is one of the 
very reasons we have an immigration system in the first place 
that admits some people but not others because we are trying to 
very much avoid the fiscal costs.
    Granting amnesty like DAPA to those in the Country 
illegally and letting them stay negates one of the very reasons 
we have a legal immigration system that selects people.
    Of course the fiscal costs, let me say in conclusion, are 
only one consideration. There are many others to think about. 
If we do move forward some kind of amnesty, if the judge lifts 
his order or what have you and people continue to advocate for 
it, we have to be honest with the American people and 
acknowledge the very real costs that come from allowing illegal 
immigrants to stay in the Country and not try to bamboozle them 
with the idea that this is going to be a fiscal benefit.
    Thank you.
    [Prepared Statement of Mr. Camarota follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]       
   
    Mr. DeSantis. I thank the gentleman.
    The Chair now recognizes Ms. O'Connor, for 5 minutes.

                 STATEMENT OF EILEEN J. O'CONNOR

    Ms. O'Connor. Mr. Chairman, Ranking Member and members of 
the subcommittees, thank you very much for inviting me to be 
with you today.
    I speak on my own behalf as a private citizen and not on 
behalf of my firm or my partners or its clients. I hope to 
bring to you some of the understanding I have gained through 
many decades of working with the Internal Revenue laws both 
inside and outside of government.
    You have called this hearing to examine the fiscal costs of 
the President's executive actions on immigration. I will 
address the likely consequences of those programs to Federal 
tax administration and enforcement.
    The Internal Revenue Service is charged with administering 
and enforcing the internal revenue laws. When enforcing the tax 
laws requires the involvement of a court other than the Tax 
Court, the United States' interests are represented by the men 
and women of the United States Justice Department Tax Division.
    It was my privilege for 6 years to be the head of the Tax 
Division and that is the basis of some of my experience that I 
will relate to you today.
    As required by the Inspector General, Act, the Department 
of the Treasury has an Office of the Inspector General. It was 
established in 1989. In accordance with the Internal Revenue 
Service Reform and Restructuring Act of 1998, a new Inspector 
General was established, the Treasury Inspector General for Tax 
Administration, often called TIGTA.
    The Treasury Inspector General for Tax Administration, 
TIGTA, has studied the issue of refundable credits for many 
years and issued many reports. In my testimony, I summarize 
many of those reports for you.
    To understand the phenomena that we are talking about, the 
impact of DACA and DAPA, are under tax administration and 
enforcement, we need to understand two phenomena: ITINs, 
Individual Tax Identification Numbers, and refundable credits.
    In 1996, the Internal Revenue Service established 
individual tax identification numbers so that it could track 
the tax payments and tax returns of people who don't have 
Social Security numbers because they are not Americans.
    Many people outside the United States, for example, might 
have rental property in the United States. If you do, you are 
taxed on that income but you don't have a Social Security 
number because you are not a United States citizen. You, 
nonetheless, have to pay tax.
    To track those taxes and tax returns, the IRS established 
the individual tax identification number.
    It also almost immediately began giving those numbers to 
people who are in the Country illegally, working, earning 
income but not able to get a Social Security number because 
they were in the Country illegally and not authorized to work, 
but they were working and they were earning income so they were 
obligated by law to file a tax return.
    The Internal Revenue Service does not consider its 
obligation to determine the legal immigration status of people 
who file tax returns. The IRS was happy to have the tax returns 
that are filed by people in the Country illegally and to have 
their tax payments.
    For 1997, one of the first years the IRS issued ITINs, 
180,000 tax returns were filed using them. By the end of 2003, 
that number had blossomed to 7 million.
    Let me discuss for a moment refundable credits. Refundable 
credits are neither refunds nor credits. A refund is an amount 
you get back after you have paid it. A credit is an amount that 
is credited to your account because you have paid it. A 
refundable credit is neither.
    A refundable credit eliminates the Social Security taxes 
that people have paid. Low income people are relieved of many 
income tax burdens because the first x amount of dollars is not 
taxable and then after that, they are taxed at a very low rate.
    The Social Security system does not work that way. Social 
security taxes have to be paid. The earned income tax credit is 
a way to refund to people who have paid the Social Security 
tax, refund that tax to them.
    The additional child tax credit is another refundable 
credit. Again, this is an amount which represents an amount 
that the Treasury Department is going to write checks for even 
though the person to whom they are writing the check has not 
actually paid any tax at all.
    You can have a tax liability before one of these credits of 
$400, have paid in nothing, have a refundable credit of $1,000 
and Uncle Sam will write you a check for $600.
    This is equally true of earned income tax credits and the 
additional child tax credit. For years and years, the Treasury 
Department Inspector General for Tax Administration has been 
warning the Internal Revenue Service that these refundable 
credit systems are absolutely fraught with fraud. Hundreds of 
billions of dollars are paid out annually on fraudulent refund 
claims.
    The Treasury Inspector General also pointed out to Senator 
Roth back in the 1990's that the earned income tax credit was 
being given to people who were not eligible to be working in 
the United States. Congress then changed the law to make a 
Social Security number a requirement for the earned income tax 
credit.
    That same requirement was not extended to the additional 
child tax credit, so contrary to what my colleague on the right 
said a few moments ago, additional child tax credits, the 
refundable credit, are paid out to people who do not have 
Social Security numbers who are in the Country and working in 
the Country illegally.
    [Prepared Statement of Ms. O'Connor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. We have your written testimony. I see your 
time has expired, so thank you for that.
    The Chair now recognizes Ms. Moussavian for 5 minutes.

                 STATEMENT OF AVIDEH MOUSSAVIAN

    Ms. Moussavian. Thank you.
    Good afternoon, Chairman DeSantis and Chairman Jordan, 
Ranking Members Lynch and Cartwright, and members of the 
subcommittees. Thank you for the opportunity to appear before 
the subcommittees today.
    My name is Avideh Moussavian. I am an Economic Justice 
Policy Attorney at the National Immigration Law Center, an 
organization dedicated to ensuring that all Americans, 
regardless of how much money they have or where they were born, 
have the tools they need to achieve their full human potential.
    I am also the daughter of Iranian immigrants who are proud 
to have raised four American children and to call this Country 
their home.
    Last November, President Obama announced policy changes 
that will allow parents of Americans and people who came here 
in their childhood to apply for temporary relief from 
deportation and work authorization.
    The application process, which includes a $465 fee and an 
extensive criminal background check, would allow immigrants 
with deep ties to this Country to contribute more fully to our 
economy and to our communities.
    These initiatives are an important first step toward fixing 
parts of our broken immigration system. The economic benefits 
of these initiatives are profound.
    Deferred action for parents of American, DAPA, and expanded 
deferred action for childhood arrivals, DACA, will provide a 
natural economic stimulus for everyone. Both the Congressional 
Budget Office and the Joint Committee on Taxation estimate that 
DAPA and expanded DACA recipients would generate $18.9 billion 
in revenues in the next 10 years.
    Conversely, they estimated that not implementing these 
policies would severely harm the Federal budget and increase 
the Federal deficit by over $6.3 billion in that same 10 year 
period. Beyond payroll and income taxes, the Council of 
Economic Advisors estimates that the November 2014 deferred 
action initiatives will collectively increase our Nation's 
gross domestic product in the next 10 years by $90-$210 
billion.
    Although immigrants who qualify for DAPA and expanded DACA 
pay taxes, they are nevertheless excluded from many economic 
supports. They are unable to purchase health insurance, even at 
full cost, in State or federally run health exchanges as 
acknowledged by my co-panelist. They are also excluded from 
programs such as temporary assistance for needy families, SNAP 
and Federal Medicaid, among others.
    As taxpayers, however, those with a Social Security number 
are subject to the same rights and responsibilities as every 
other taxpayer and for good reason. Our tax structure should 
encourage and facilitate all workers, regardless of their 
immigration status, to submit their taxes in a timely fashion.
    It is a longstanding Federal tax principle that the same 
rules apply to all taxpayers who are working lawfully in the 
United States. This includes access to certain earned economic 
support like the earned income tax credit.
    While we may disagree on the President's executive actions, 
we need to protect the integrity of our tax system.
    The impact that DAPA and expanded DACA will have on all of 
our communities extends beyond dollars and cents. Once DAPA and 
expanded DACA begin to take effect, millions of aspiring 
Americans redouble their investment in this Country. These 
actions will make our communities safer, more prosperous and 
better integrated in ways that simply cannot be calculated.
    Once implemented, these immigration initiatives will have a 
life changing impact on the parents and young immigrants 
eligible to apply. A good example is Maria from Orange County, 
California.
    Maria is the proud mother of five children, including a son 
and a daughter who are U.S. citizens and one child who is a 
recipient of DACA and attending college today. She came to the 
United States 19 years ago to escape domestic violence and 
poverty in Mexico. She supports her family as a waitress.
    DAPA would allow Maria and her family members, who are 
undocumented, to apply for deferred action and work permits. It 
would also allow them to be paid fair wages and contribute as 
taxpayers, while striving for greater educational and job 
opportunities to reach their full potential.
    Maria and her family, including a nephew who is a U.S. 
military veteran, are proud Americans. They are just one 
example of why the deferred action initiatives are an important 
opportunity for our Nation to make a smart, long term 
investment in our shared economic prosperity.
    I thank you for the opportunity to testify before you 
today. I look forward to answering any questions you may have.
    [Prepared Statement of Ms. Moussavian follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]       
    
    Mr. DeSantis. Thank you.
    The Chair now recognizes himself for 5 minutes.
    Mr. Rector, is it your understanding that an illegal 
immigrant who is amnestied by the President's executive actions 
will be able to file retroactive tax returns for 3 years?
    Mr. Rector. That is correct.
    Mr. DeSantis. They would be able to claim the earned income 
tax credit, the additional child tax credit for work they 
performed that was illegal when they performed it?
    Mr. Rector. Yes, although they don't even really have to do 
that because in order to get those two credits, all they have 
to do is assert they performed the work. The IRS does not 
actually check that and if you look at the IRS' own documents, 
they show that 25 percent of all EITC payments, close to $20 
billion a year, are fraudulent on the basis of people claiming 
they did certain work they probably never performed at all.
    All they would have to do is assert that they performed 
certain amounts of work and they would be able to get the 
refundable EITC and ACTC. I calculate if they did it without a 
lot of fraud, it would still cost around $20 billion 
retroactively.
    Mr. DeSantis. Ms. O'Connor, apart from the executive 
actions on illegal immigration, the IRS does pay out a 
substantial amount in fraudulent refundable credits generally, 
correct?
    Ms. O'Connor. Right, the program is fraught with fraud.
    Mr. DeSantis. Of all the programs, I think this has to be 
one of the highest fraud rates across the entire Federal 
Government. In 2011, TIGTA recommended the IRS require 
additional documentation to support claims of child tax credits 
in particular. Did the IRS implement that recommendation?
    Ms. O'Connor. No, the IRS says that it is not authorized to 
ask for documentation during the return processing period, that 
it is only if they select a return for examination that they 
can ask for documentation justifying the credit.
    Mr. DeSantis. Has the IRS taken any steps to reduce the 
amount of fraud in refundable tax credits?
    Ms. O'Connor. As I mentioned in my testimony, every year 
the Treasury Inspector General for Tax Administration gives the 
Internal Revenue Service a number of recommendations. The IRS 
does follow many of them but the rate of fraud continues to 
increase. It went up 23 percent from 2013 to 2014, as a matter 
of fact, according to a GAO report issued just yesterday.
    Mr. DeSantis. Do you know how much refundable credit fraud 
can be traced to individuals who are not authorized to work but 
nevertheless are working in the United States?
    Ms. O'Connor. I do not.
    Mr. DeSantis. Do you, Dr. Camarota?
    Dr. Camarota. Yes. In 2011, the Inspector General said $4.3 
billion for the ACTC went out to people who were not authorized 
to work in the United States. They know that from auditing the 
records of people getting that money without Social Security 
numbers but did use an ITIN. That is how they know it.
    Mr. DeSantis. What would be the easiest way for Congress to 
address this? If we said these refundable tax credits are on 
the books but we want them to go to people who are legally 
working, what would we need to do to reduce the fraud?
    Mr. Camarota. Require documentation for both the income and 
require valid Social Security numbers. It would be a common 
sense step and not keep paying them out.
    Ms. O'Connor. And require the Internal Revenue Service to 
verify the eligibility for the credit before they pay them out. 
That is the problem. They pay them out first without checking.
    Ms. Moussavian. If I may add, the TIGTA report my colleague 
on the panel quoted was from 2011. Since then, the IRS has 
implemented very rigid changes to the individual taxpayer 
identification number program, the ITIN Program. It has 
resulted in a drastic reduction in the number of ITINs that are 
issued.
    In fact, those figures do not reflect the IRS initiative to 
address alleged allegations of fraud within the Child Tax 
Credit Program.
    Mr. DeSantis. What is the basis of that? Is that your 
understanding, that they have reduced the fraud by a lot?
    Ms. O'Connor. No, not at all. Remember that it is not fraud 
for someone in the Country illegally to get the additional 
child tax credit. Congress has never made it clear, 
notwithstanding IRS' published position that you don't have to 
have a Social Security number to get the additional child tax 
credit. Congress should make that clear if that is its 
intention.
    Further, the GAO report issued yesterday says that IRS 
issued $17.7 billion in improper payments of the earned income 
tax credit just last year. That is a 23 percent increase over 
the year before.
    Mr. DeSantis. That is a staggering amount of fraud.
    This could be for Dr. Camarota or Mr. Rector. Does the 
President's November 2014 executive actions include a 
requirement that any candidate for ``deferred action'' have 
never filed for nor received nor been party to tax or other 
Federal benefits for which he or she was not entitled at the 
time?
    Mr. Rector. No, it does not require that. I would say on 
behalf of the earned income tax credit, we know there is a lot 
of fraud in that program because it is very rigorously audited. 
If you were to go over to the Food Stamp Program, there is a 
fraud rate of at least 10 percent over there that you never 
hear about because they do not audit it as well. If you wanted 
to see real fraud, go to public housing.
    There is a massive amount of cases where individuals claim 
or hide income and in the case of the EITC, claiming income 
they don't actually have in order to gain the benefit, or in 
the case of these other programs, working off the books and 
hiding the income in order to get benefits. It is rife within 
the entire welfare system, not just the EITC.
    Mr. DeSantis. Thank you. My time has expired.
    The Chair will now recognize Mr. Lynch for 5 minutes.
    Mr. Lynch. Mr. Chairman, Mr. Cartwright has a scheduling 
problem so I would like to yield my time to him and then I will 
take his time later.
    Mr. DeSantis. Very well.
    Mr. Cartwright. Thank you, Mr. Lynch and thank you, Mr. 
Chairman.
    From Mr. Rector's testimony today, we have head many 
absolutely stunning numbers on the fiscal costs of the 
Administration's deferred action programs. For example, Mr. 
Rector's written testimony States, ``Increase in the ITC and 
ACTC cash payments to DAPA recipients would be $7.8 billion per 
year.''
    This figure is more than ten times the estimate by the non-
partisan, not Democrat, not Republican, Congressional Budget 
Office earlier this year. With all due respect, this is not the 
first time immigration cost analyses from The Heritage 
Foundation have come under scrutiny.
    For example, a May 2013 immigration report by Mr. Rector 
was sharply criticized by the Cato Institute. They said in that 
study, ``Its flawed methodology and lack of relevancy to the 
current immigration reform proposal relegate this study to 
irrelevancy.''
    Mr. Rector, my question is, were you aware of this 
criticism by the Cato Institute at that time?
    Mr. Rector. Yes, I am aware of the criticism.
    Mr. Cartwright. Why did you choose to ignore any potential 
economic benefit that would come from introducing these people 
to our work force?
    Mr. Rector. Would you like me to answer that?
    Mr. Cartwright. Sure.
    Mr. Rector. The EITC numbers that I have come directly from 
the census. The census, when we talk about illegal immigrants, 
most of them are inside the census. The census takes the 
family's income and their demography and imputes a value for 
the earned income tax credit.
    The number I gave there, roughly $7 billion, simply takes 
the illegal immigrant population that is subject to DAPA and 
takes the census number and adds it together.
    Mr. Cartwright. That is relegated to irrelevancy by the 
Cato Institute and more than ten times the estimates by the 
non-partisan CBO. We need to talk about this later but I only 
have 5 minutes and I want to shift over to Ms. O'Connor, Mr. 
Rector.
    Ms. O'Connor, my impression from your written testimony was 
that in large part it is a reStatement of TIGTA reports. Would 
that be a fair Statement?
    Ms. O'Connor. That is correct.
    Mr. Cartwright. TIGTA is the Treasury Inspector General for 
Tax Administration, right?
    Ms. O'Connor. Right.
    Mr. Cartwright. What you have done is you have taken the 
points from a number of TIGTA reports on this whole question, 
right?
    Ms. O'Connor. Right.
    Mr. Cartwright. Since November 2004, the man's name has 
been J. Russell George, am I correct in that?
    Ms. O'Connor. You are correct.
    Mr. Cartwright. That is the TIGTA that we are talking 
about, right?
    Ms. O'Connor. Yes.
    Mr. Cartwright. I invite your attention to page four of 
your written testimony, the first report there is a 2009 
Inspector General report. When you say Inspector General, you 
are talking about TIGTA in your report, right?
    Ms. O'Connor. That is right.
    Mr. Cartwright. My question is, why didn't you mention J. 
Russell George's name when you talked about that 2009 TIGTA 
report? It is not in there, is it?
    Ms. O'Connor. I did not mention him by name because what is 
important is the office. The first TIGTA report I mentioned was 
before Mr. George took office.
    Mr. Cartwright. You mentioned another 2009 report from 
TIGTA on the same page. You did not mention J. Russell George's 
name there either, did you?
    Ms. O'Connor. Why would I?
    Mr. Cartwright. Then on page five, you mentioned the 
Inspector General report from 2011, a third report from TIGTA, 
and you do not mention J. Russell George's name in that one 
either, am I correct in that?
    Ms. O'Connor. What you are missing is that I am referring 
to reports that are prepared by the Office of the Treasury 
Inspector General for Tax Administration.
    Mr. Cartwright. On page six, you mentioned a fourth report 
from TIGTA and you also mentioned a 2013 report from the 
Inspector General, I am asking you simply yes or no questions 
and I am entitled to a response.
    Ms. O'Connor. No, you are not.
    Mr. Cartwright. The fourth report on page six refers to a 
2013 IG report, also from TIGTA, and you do not mention Mr. 
Russell George's name in that report.
    Ms. O'Connor. And I did not mention the name of the TIGTA 
in the first TIGTA report before Mr. George took office.
    Mr. Cartwright. On page six, the fifth report, last year in 
2014, Inspector General mentions another set of findings and 
you did not mention J. Russell George's name in that fifth 
report either, did you?
    Ms. O'Connor. And your point is?
    Mr. Cartwright. Are you aware, Ms. O'Connor, that 
Representative Gerry Connolly from Virginia and I have called 
for an ethics complaint against J. Russell George for his 
handling of other matters because of his lack of non-
partisanship? Are you aware of that, Ms. O'Connor?
    Ms. O'Connor. No.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    The Chair now recognizes the Chairman of the Benefits 
Subcommittee, Mr. Jordan, for 5 minutes.
    Mr. Jordan. I apologize, Mr. Chairman.
    Let me go with a couple numbers. First of all, Mr. Rector, 
would you characterize Cato as non-partisan when it comes to 
the immigration issue?
    Mr. Rector. The Cato Institute is an open borders 
libertarian institution. It believes in no restrictions on 
immigration whatsoever and everything they have to say on this 
policy flows from that.
    Mr. Jordan. A slightly different position than Heritage 
takes?
    Mr. Rector. A little bit.
    Mr. Jordan. I like the Cato Institute, I think they do some 
great work, but on this particular issue, I am not where they 
are. To cite them as the end all, be all definitive Statement 
on numbers Heritage has on immigration policy, I do not think 
makes sense.
    Mr. Jordan. Ms. O'Connor, you mentioned 7 million people 
with the tax identification number in your testimony. Tell me 
what that number is again because there is a dramatic increase 
from when the tax ID number was first put in place, I believe 
you said in the mid-1990's, to where it is today? Will you 
elaborate on that, please?
    Ms. O'Connor. The 7 million number is a couple years old 
already. The Internal Revenue Service says it issues about 2.5 
million additional ITINs every year.
    Mr. Jordan. The 7 million was from what year?
    Ms. O'Connor. I think that was 2009.
    Mr. Jordan. It is significantly higher today?
    Ms. O'Connor. Right.
    Mr. Jordan. The 5 million who are part of the President's 
latest, would they be reflected in the most current number, 
whatever that number is, or is that going to be 5 million 
additional added to that number?
    Ms. O'Connor. That is a good question since we know that 
many people who are in the Country illegally are already paying 
taxes and they use ITINs to do so. I would not imagine that the 
President's action is going to increase the number of ITINs 
that much more than it increases every year anyway.
    Mr. Jordan. Mr. Camarota, you mentioned a $4.3 billion 
number from a 2011 study. Tell me about that again?
    Mr. Camarota. The Inspector General went through and looked 
at all the people in the United States who were working and 
filed an income tax return using an ITIN and gave them $4.3 
billion.
    The Inspector General report is very clear that basically 
all these individuals are illegal immigrants getting the ACTC, 
the cash portion of the additional child tax credit. That is, 
they did not pay any Federal income tax and they gave them $4.3 
billion instead.
    Mr. Jordan. I am not sure if the Chairman asked this 
question in his time but based on what the President did in 
November, the additional $5 billion, this sort of relates to 
the previous question I asked Ms. O'Connor, what do you 
anticipate that number is going to do? Is going to go up 
significantly? What is going to happen?
    Mr. Camarota. We would certainly expect that now that they 
have valid socials, more of them would actually work on the 
books. We think right now only about 55 percent of illegal 
immigrants work on the books but presumably that number would 
increase with legalization and valid Social Security numbers.
    The number of people getting the EITC or the ACTC, which we 
have been discussing here, would grow proportionately, 
depending on how many people come forward. Obviously if it is a 
lot of folks, it will run into the billions.
    Mr. Jordan. You cited the Inspector General. Mr. Cartwright 
made a big deal of the Inspector General in his previous time. 
In your estimation, the reports and numbers you received from 
the Inspector General, are they in any way not accurate, is 
there some doubt as to the validity of the reports and numbers 
the Inspector General has brought forward?
    Mr. Camarota. No, these are pretty straightforward. How 
many people are filing income tax returns.
    Mr. Jordan. It does not matter if it is Inspector Russell 
George or Santa Claus, right, as long as the numbers add up, it 
adds up, right?
    Mr. Camarota. I have no reason to doubt them.
    Mr. Jordan. The Democrats like to make a big deal on Mr. 
George, but the fact is when Mr. George discovered that 
targeting was taking place, he gave a heads up to the Treasury 
Department, he gave a heads up to the IRS, clear back before 
the Presidential election. He gave a heads up to everyone else.
    He did not give us a heads up. I would like for him to have 
told Congress that the IRS was using the terms tea party and 
patriot to identify groups and put them in this category where 
they never got their tax exempt status.
    They would like to make a big deal that they have filed 
some ethics charges against him but the truth is, Mr. George, 
if anyone has a complaint with Mr. George, it should be the 
Republicans because he told the White House Administration 
information before he ever told us, in fact, 6 months before.
    This whole idea that somehow these numbers are not valid or 
not accurate makes no sense to me. We can make a big deal of it 
if we want but the fact is, they targeted conservative groups. 
Now they are just giving us accurate numbers, simple 
mathematics, right?
    Mr. Camarota. To my knowledge.
    Mr. Jordan. Simple math and you guys are bringing 
information forward. For that, we thank you and I yield.
    Ms. Moussavian. Congressman, if I may add, the same TIGTA 
report----
    Mr. DeSantis. The gentleman's time has expired.
    The Chair asks unanimous consent to enter into the record 
the GAO report published this Monday, March 16, about improper 
payments for the whole government but it does include the 
information on earned income tax credits.
    Without objection, so ordered.
    Mr. DeSantis. The Chair now recognizes a proud Bostonian on 
St. Patrick's Day, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    That is part of the reason why I arrived a bit late. We 
have the Taoiseach of Ireland in today. Maybe it is an Irish 
trait, but he spoke a bit long, so I arrived a little bit late.
    I want to thank all of the witnesses. You all have been 
helpful. While you are not in agreement, I would hope that our 
immigration policy would be data driven to some extent. The 
ideas that you have shared are certainly very helpful.
    I think the answer to this is to structure an immigration 
policy and immigration laws that maximize the longer term 
general benefits to our economy and to our Country while at the 
same time trying to mitigate and eliminate possibly some of the 
short term costs that you are describing which are more local 
in many respects.
    The President, with all due respect, has not had that 
opportunity. DAPA is a very blunt instrument as it does not 
allow us to, as I said before, maximize the positive and 
mitigate the negative. It is a rather crude instrument. It is 
not of his choosing.
    I think the President has said on many occasions that he 
would prefer to have a comprehensive, well thought out, well 
structured, thoroughly debated, data driven immigration law 
introduced rather than using this more crude mechanism, but 
this is what he is left with. That is what the President has 
said on countless occasions.
    There are some longer term general benefits. I know that 
one of my issues is Social Security. The birth rate in the 
United States is not sufficient. We do not have a sufficient 
what they call replacement rate because new workers are not 
coming into the economy, the birth rate is so low and that 
fewer number of citizens will eventually carry a tremendous 
burden for the pensions, Social Security obligations and tax 
burden for a much larger, earlier generation.
    Immigration could help that if it were structured in a 
positive way which would address that gap.
    Ms. Moussavian, you have been very, very kind to appear 
before us and I want to ask you about the earned income tax 
credit and the Work Pays Initiative.
    At the time of the program's expansion, Senator Chuck 
Grassley took to the Senate floor to support the earned income 
tax credit stating, ``It is important to bear in mind the 
billions of dollars that have been provided in this bill to 
encourage struggling families to enter the work force or expand 
the number of hours they work. Too often, we focus on the 
welfare specific provisions and completely forget or ignore the 
major efforts to encourage work that are contained in the Tax 
Code.''
    Ms. Moussavian, I would like to know, is that your 
understanding of that provision? Is that how it works?
    Ms. Moussavian. The earned income tax credit is a long 
standing tax program that is meant to incentivize work and 
recognize that work should be acknowledged, particularly for 
low income families struggling to support their children and 
families.
    Mr. Lynch. In general, would you agree that the families 
who receive the EITC increase the number of hours they work? Is 
that how this works?
    Ms. Moussavian. The earned income tax credit is only for 
people who are working and who are paying taxes. In that sense, 
it was intended specifically as an alternative to public safety 
net programs and means tested public benefits. It is entirely 
different in nature.
    It rewards work. It rewards particularly work performed by 
low income families. Over 74 percent of recipients of the 
earned income tax credit make less than $25,000 a year. In that 
sense, these are vital economic supports that are viewed as 
essentially an economic stimulus for the local communities that 
money gets reinjected back into.
    Mr. Lynch. For that strata, that classification of low 
income and middle income families, do you believe the EITC 
original purpose is served by continuing to encourage them to 
work?
    Ms. Moussavian. That is correct.
    Mr. Lynch. We got into child tax credits. Senator Grassley 
also Stated, ``This is a tax credit that particularly helps low 
and middle income families who pay for child care for the young 
children.''
    Ms. Moussavian, do you agree with Senator Grassley that the 
tax credit does help with that, when affording child care for 
their young children is considered?
    Ms. Moussavian. Yes, both the ATC and the CTC by design are 
anti-poverty programs. They have been enormously effective in 
lifting millions of low income families, working, tax-paying, 
low income families out of poverty.
    They provide essential economic support for families so 
that they do not have to make difficult choices about do I put 
food on the table for my young child, do I pay the utility bill 
or do I pay the rent.
    It allows those families to invest, again, these are 
parents of largely U.S. citizen children. Proposing any threats 
to change access to these important anti-poverty programs, we 
are hurting U.S. citizen kids.
    I would just add, and I apologize if I interrupted my co-
panelist before, but I wanted to also correct. These are 
taxpayers and the ITIN program that is available to non-
citizens, both unauthorized immigrants as well as those with 
status who are lawfully present.
    They make tax contributions. In fact, the same TIGTA 
Inspector General we have been citing, his 2011 report 
specifically said that in the tax year 2010, ITIN holders 
contributed $897 million in tax revenue.
    Yes, there are some ITIN holders or some immigrants who are 
receiving this tax credit, but again, to your point, it goes to 
provide those families with really vital economic support.
    Mr. Lynch. Thank you very much.
    Thank you, Mr. Chairman, for your indulgence. I realize I 
went over. I yield back the balance of my time.
    Mr. DeSantis. The gentleman yields back.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman. Happy St. Patrick's 
Day to everyone.
    Thank you, Ms. O'Connor, from Mr. Mulvaney, for wearing 
your green today.
    I am sitting here talking to my friend, Mr. Jordan, trying 
to figure out what to talk about.
    Mr. Rector, every time I listen to you, and I have before, 
and you and I have talked about this before, the thing that 
stick in my craw is every time I listen to you, I get the 
feeling that you think all immigration is bad.
    I know that is not the message you want to convey but that 
is the message you convey, is that immigrants are bad. I have 
to disagree with that fundamentally.
    At the same time, Ms, Moussavian, I look at what the 
President did and I think that does not work either. What Mr. 
Rector wants to do, which is keep everybody out, does not work 
and what you are defending, what the President did, which was 
with the stroke of a pen, violate the law and give bunches of 
benefits to people costing billions of dollars, is also wrong.
    Instead of sitting here and trying to figure out who is 
right because I think neither of you is right, help me be more 
positive today on St. Patrick's Day. Tell me what a functioning 
and healthy, legal immigration system looks like. Mr. Rector, I 
will start with you and keep your answer fairly short because I 
want to hear from everyone on this. I do not want to eat up all 
my time.
    Mr. Rector. I think it has been very clear over the last 
decade or so that when you look at the fiscal consequences of 
immigration, immigrants who have a college degree pay far more 
in taxes.
    Mr. Mulvaney. I hear you, Mr. Rector. Again, I am not going 
to go into the details of it but I recognize the fact that the 
welfare system and the welfare State is different now than it 
was when my great grandparents came over but we did not build 
the Country on college graduates. That is just not how it 
worked.
    When my great grandparents came over, there were farmers 
who came because they were literally starving to death. They 
were not college graduates. They were not doctors and lawyers. 
They came over and that is how we built the Country. I do not 
want to get into it today.
    Give me one idea on how we provide for a healthy, legal 
immigration system going forward.
    Mr. Rector. Bring in people who are net taxpayers and will 
not impose additional cost on the already extraordinarily 
overburdened U.S. taxpayer.
    Mr. Mulvaney. Mr. Rector, we could do it different from 
that. Again, when my ancestors came over, we did not have much 
of a welfare State at the time. We had a little bit. They were 
required, if I know my history right, to have a sponsor who 
effectively posted a bond for them and said, Ms. O'Connor is 
coming over, she is my responsibility, she is my ward and I am 
guaranteeing that she will not be on any Federal programs for 
the next 15 or 20 years. That is the history, give or take, 
right?
    Ms. O'Connor, am I right about that?
    Ms. O'Connor. I believe so.
    Mr. Mulvaney. We could do that again now, couldn't we? We 
could allow folks to come over and they would not be a net tax 
loss?
    Mr. Rector. Those principles are still in effect. It is 
still in the law. I have been doing this for 40 years. I have 
yet to see a single individual who has redeemed that bond 
because these families go on welfare. I understand what you 
just said. It is in law. It is never, ever enforced.
    Mr. Mulvaney. If we could look at something we could agree 
on, enforcing the current immigration law might do great steps 
toward improving things?
    Mr. Rector. Again, you have to simply acknowledge that if 
you bring in people that have very low education levels, there 
is a fiscal cost. If you want to do that, I am just going to 
tell you what the fiscal cost is.
    Mr. Mulvaney. Ms. O'Connor, do you want to check in on 
this? Give me some ideas on how to fix the legal immigration 
system in the Country?
    Ms. O'Connor. Enforce it.
    Mr. Mulvaney. That is fair. You think the laws we have now 
are adequate?
    Ms. O'Connor. I have not studied immigration law to a large 
extent. I am, however, a first generation American, so I have 
some personal experience with immigration and naturalization.
    The problem I see from a tax perspective is what is being 
called amnesty bonuses. We have open borders and a welfare 
system. That relinquishes our sovereignty. That is wrong.
    Mr. Mulvaney. I agree. I think that is the difficulty, Ms. 
Moussavian, with what the President has just done. He has 
created a financial bonus for having come here illegally. That 
is what strikes so many of us, even those of us who are for 
reforming the legal immigration system, as being unfair.
    We are looking at folks and saying, if you came here 
legally, you do not get the 3-years backward looking earned 
income tax credit. There is an incentive to have come here 
illegally and that is simply not fair.
    Ms. O'Connor. Immediately repeal all refundable credits and 
take the Internal Revenue Service out of the business of 
welfare program administration.
    Mr. Mulvaney. Ms. Moussavian, I have about 20 seconds. Give 
me an idea on how to fix legal immigration?
    Ms. Moussavian. First, I would say people who are eligible 
for DAPA and DACA are not going to be eligible for any of the 
Federal public benefits programs we are talking about. In fact, 
any of you who have met with any of our staff have seen this 
chart that really highlights all the barriers to access to 
programs.
    Mr. Mulvaney. I am sorry to go over my time but I am 
misunderstanding you because I had Mr. Koskinen in here and I 
asked him myself if some were qualified for the President's 
amnesty from November.
    Ms. Moussavian. The tax credit programs are not Federal 
public benefits. They are for people who are taxpayers and 
workers. These are people who are paying without any type of 
work authorization. They are contributing $13 billion.
    Mr. Mulvaney. You are consolidating. I am giving you one 
example of someone who is here, came here illegally, might have 
worked or not, and the President is now going to give them a 
Social Security number and they can claim 3 years of back to 
the EITC.
    Ms. Moussavian. This look back provision we are talking 
about, claiming past years, it is not exclusive to the EITC, it 
is not exclusive to people who would be getting Social Security 
numbers through DAPA or DACA.
    Mr. DeSantis. The gentleman's time has expired.
    Votes have been called. We definitely have time to 
recognize Mr. Lieu and I think at that point, we will stand in 
recess. I do think this is likely to be a lengthy vote series. 
To the witnesses, if we are in recess or an hour, how is your 
schedule? Would you be able to reconvene at that time? That 
will be the plan.
    The Chair now recognizes the gentleman from California for 
5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    We heard some numbers from The Heritage Foundation. There 
are other institutions that have also done economic analyses 
and I would like to put those in the record.
    Last month, the Council of Economic Advisors released its 
latest economic analysis of the executive actions. My question 
will be for Ms. Moussavian.
    It is true, is it not, they estimated these actions would 
raise America's GDP level between $100-$250 billion over the 
next 10 years?
    Ms. Moussavian. Yes, that is correct. I believe the 
estimates are between $90 billion and $210 billion, according 
to that study.
    Mr. Lieu. It would also reduce the Federal deficit by $30 
billion over the next 10 years?
    Ms. Moussavian. That is correct.
    Mr. Lieu. Let us look at it another way which is, if we 
were to eliminate these actions, we also had some analysis on 
that. In January, the Congressional Budget Office and the Joint 
Committee on Taxation made some estimates of what would happen 
if we eliminated the deferred action for parental 
accountability and the deferred action for childhood arrivals.
    They said that would actually increase the Federal deficit 
by $7.5 billion over 10 years?
    Ms. Moussavian. Yes, that is correct.
    Mr. Lieu. Those two institutions are non-partisan or 
bipartisan, correct?
    Ms. Moussavian. Yes.
    Mr. Lieu. It is also my understanding the Joint Committee 
on Taxation estimated $14.9 billion may be spent on EITC but it 
would be offset by $22.3 billion in additional Social Security 
payroll taxes, isn't that correct?
    Ms. Moussavian. Yes, it is.
    Mr. Lieu. I am going to reserve the balance of my time to 
make a Statement. It will be directed to Mr. Rector, not so 
much on the substance of your testimony but just on the tone of 
it.
    I think it is easy for people like you and me who wear 
suits and ties and work in offices to cast aspersions on those 
with a tenth grade education. I certainly hope you are not 
saying that only those with college degrees or high school 
degrees should be eligible for Federal benefits.
    Let us talk about some of these folks with a tenth grade 
education such as Maria Isabel Jimenez. She was a farm worker, 
17 years old. She worked for 9 hours 1 day on a farm near 
Stockton in brutal heat without shade or water and then she 
collapsed. She was taken to a hospital. Her body temperature 
was 108.4 degrees. She died 2 days later.
    When I was in the California State Legislature, I had the 
opportunity to meet over many years, many farm workers who have 
had families die in brutal conditions and in the heat so that 
you and I can have less expensive orange juice, cheaper 
artichokes, and less expensive garlic.
    I just want to suggest that people like Maria Isabel 
Jimenez, that her net contribution in dying so that you and I 
can have cheaper grocery bills so that we can spend less, she 
has given far more to American society than you and I ever 
will.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    We do have some more time. Mr. Carter is in the queue if 
you would like to go? The Chair will recognize the gentleman 
from Georgia for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. Thank all of you for 
being here.
    Bear with me if you will, OK? Are any of you parents just 
by chance? None. OK.
    What bothers me so much here is it just seems like we are 
rewarding bad behavior. Would you agree with that, Mr. Rector?
    Mr. Rector. Absolutely. What you have here is a situation 
where you are taking close to 4 million people, granting them 
access to the most expensive government entitlement system in 
the world and my calculations are that over the course of a 
lifetime, the total benefits they will get through amnesty 
minus the taxes they pay in is around $500,000 to $600,000. It 
is a massive reward.
    Then we talk about oh, they will pay a fine of $1,000. 
There are hundreds of millions of people who would like to come 
live in the United States. What you are doing here is not only 
permitting people to stay here illegally but giving them this 
massive financial windfall because they came here and broke our 
laws.
    I think that sends a very bad message to our population and 
across the globe. I think it is completely unfair to the U.S. 
taxpayer.
    We tried it before. We gave amnesty to nearly 3 million 
people and ended up with 10-12 million more that replaced those 
folks. It seems hard to imagine that rewarding illegal activity 
is going to give you less of it in the future.
    Mr. Carter. Ms. O'Connor?
    Ms. O'Connor. Similarly, by rewarding it, we are creating 
an incentive for more of it and we are punishing the people who 
have been waiting in line for the legal immigration because our 
systems are going to be completely overwhelmed by handling the 
DACA and DAPA applicants that those who have already been 
waiting in line for years are going to be waiting in line for 
more years to enter the Country legally.
    Mr. Carter. You are not a parent but you have parents, Ms. 
Moussavian?
    Ms. Moussavian. Yes, I am from a very large family. My 
comment is that this is recognizing work and it is work that 
directly fed into our Social Security coffers and to our 
Federal tax revenue, into billions of dollars in State and 
local taxes.
    Mr. Carter. You would subscribe to the theory that as long 
as you are doing something productive, it is OK to do it 
illegally?
    Ms. Moussavian. I would subscribe to the theory that the 
IRS' mission is to enforce the Internal Revenue Code and 
recognize they want everyone to be in compliance with their tax 
obligations.
    By providing this important economic support to parents of 
U.S. citizens, 95 percent of the DAPA eligible population is 
parents of U.S. citizens, Americans who have parents.
    Mr. Carter. How did they become U.S. citizens?
    Ms. Moussavian. I am sorry?
    Mr. Carter. How did they become U.S. citizens?
    Ms. Moussavian. Their children.
    Mr. Carter. I understand but how did their children become 
U.S. citizens, because they were born here?
    Ms. Moussavian. That is correct.
    Mr. Carter. Their parents were here illegally and they were 
born here. That makes them U.S. citizens, I get that. That 
means we should reward the parents who were here illegally?
    Ms. Moussavian. It is not rewarding them. First, with 
respect to the tax credit, it does not take away the ability of 
any other person with a Social Security number to make claims 
for those same tax programs.
    With respect to the parents we are talking about of DAPA 
eligible population, we are talking about a population that has 
been here a minimum of 5 years, that have been paying taxes, 
that have been raising our next generation of innovators, 
students and the work force.
    Mr. Carter. Understood. If they have been here more than 5 
years illegally, that makes it OK?
    Ms. Moussavian. Under the executive actions, the President 
has said we need comprehensive immigration reform, and that is 
what I would ask of you and your colleagues, that ultimately 
the long term solution rests with you.
    The President has said through these initiatives, this is a 
way to put some order and sense into our immigration system 
rather than put these parents of U.S. citizens at risk of 
deportation. We want to recognize they have been here for a 
long time, they are deeply embedded in our communities and our 
work force. They are vital contributors.
    That is what the President's executive actions are about.
    Mr. Carter. What message do you think that sends to the 
children of American taxpayers who have been here legally? What 
message does that send to our society?
    Ms. Moussavian. The President is sending the message, I 
want you to be able to stay with your parents regardless.
    Mr. Carter. The President is sending the message that it is 
OK to break the law.
    Ms. Moussavian. No, he is saying that our immigration 
system is dysfunctional and Congress, please work together to 
come up with a long term solution.
    Mr. Carter. Two wrongs make a right? Is that what we are 
saying?
    Ms. Moussavian. I think there have been many wrongs that 
have led to this current situation that we are in. We are out 
of touch. It is all well and good to say we should follow the 
laws. The problem is the system is broken at every level.
    Mr. Carter. For some reason, I just do not think we will 
agree on this.
    Mr. DeSantis. The gentleman's time has expired.
    Mr. Carter. Thank you. Thank you for being here.
    Ms. Moussavian. Thank you.
    Mr. DeSantis. I really appreciate the witnesses. I think we 
have had enough people that have asked questions. My sense is 
that we probably would not have many coming back. I want to 
thank the witnesses.
    I think at the end of the day, all of you made good points. 
The problem with being here is these are debates that should be 
had in Congress before you have massive policy changes. The 
President, by unilaterally doing something he said 22 different 
times he did not have the authority to do, really short 
circuited the American peoples' ability to weigh in on this.
    We do not know what is going to happen with the courts. We 
do not know what Congress will do. We do not know a lot of 
these things right now, but I think we need to put some of 
these ideas on the table and get different views because I 
think taxpayers deserve to know what effect, if any, this is 
going to have on the public and their tax liabilities.
    I appreciate everyone and we will stand adjourned. This 
hearing is concluded.
    [Whereupon, at 3:25 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
